UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2685
United States of America
Appellee
v.
Antwoyn Terrell Spencer
Appellant
No: 19-2691
United States of America
Appellee
v.
Derrick Jerome Spencer
Appellant

Appeals from U.S. District Court for the District of Minnesota
(0:07-cr-00174-JRT-l)
(0:07-cr-00174-JRT-2)
ORDER
The court requests a supplemental brief from the government addressing (1)
whether a live controversy exists in appellant Antwoyn Spencer’s appeal, given his
concurrent sentence on Count 4, see United Slates v. Mannie, 971 F.3d 1145, 1152-54
(10th Cir. 2020), and (2) the government’s current position and rationale on whether the
appellants are eligible for a reduction of sentence under § 404 of the Fair Sentencing Act.
The government’s brief should be filed by February 24 and should not exceed
3900 words. The appellants may file a single responsive brief of up to 3900 words within
Appellate Case: 19-2685

Page: 1

Date Filed: 02/17/2021 Entry ID: 5005470

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2685
United States of America
Appellee
v.
Antwoyn Terrell Spencer
Appellant

No: 19-2691
United States of America

■V

Appellee
v.
Derrick Jerome Spencer
Appellant

Appeals from U.S. District Court for the District of Minnesota
(0:0'7-cr-00174-JRT-l)
(0:07-cr-00174-JRT-2)
ORDER
The court requests a supplemental brief from the government addressing (1)
whether a live controversy exists in appellant Antwoyn Spencer’s appeal, given his
concurrent sentence on Count 4, see United States v. Mannie, 971 F.3d 1145, 1152-54
(10th Cir. 2020), and (2) the government’s current position and rationale on whether the
appellants are eligible for a reduction of sentence under § 404 of the Fair Sentencing Act.
The government’s brief should be filed by February 24 and should not exceed
3900 words. The appellants may file a single responsive brief of up to 3900 words within
Appellate Case: 19-2685

Page: 1

Date Filed: 02/17/2021 Entry ID: 5005470

seven days of the government’s service of its supplemental brief.
February 17,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

i

Appellate Case: 19-2685

Page: 2

Date Filed: 02/17/2021 Entry ID: 5005470

